<html>
<title> - EXPOSING AND DEMANDING ACCOUNTABILITY FOR KREMLIN CRIMES ABROAD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    EXPOSING AND DEMANDING ACCOUNTABILITY FOR KREMLIN CRIMES ABROAD

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 7, 2020

                               __________

                           Serial No. 116-125

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov                      
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-239 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                     ELIOT L. ENGEL, New York, Chairman
  
  BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
  GREGORY W. MEEKS, New York               Member
  ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
  GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
  THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
  KAREN BASS, California		     SCOTT PERRY, Pennsylvania
  WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
  DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
  AMI BERA, California		     LEE ZELDIN, New York
  JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
  DINA TITUS, Nevada		     ANN WAGNER, Missouri
  ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
  TED LIEU, California		     FRANCIS ROONEY, Florida
  SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
  DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
  ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
  COLIN ALLRED, Texas		     RON WRIGHT, Texas
  ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
  ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
  CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
  TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
  DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
  JIM COSTA, California
  JUAN VARGAS, California
  VICENTE GONZALEZ, Texas                              
                               
                                       
                  Jason Steinbaum, Democrat Staff Director
                 Brendan Shields, Republican Staff Director
               
               
                                 ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey		     JOE WILSON, South Carolina
THEODORE DEUTCH, Florida	     ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island	     JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas		     FRANCIS ROONEY, Florida
DINA TITUS, Nevada		     BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	     GREG PENCE, Indiana
DAVID TRONE, Maryland		     RON WRIGHT, Texas
JIM COSTA, California		     MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas		     TIM BURCHETT, Tennessee
                                  

                    Gabrielle Gould, Staff Director                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Fried, the Honorable Daniel, Weiser Family Distinguished Fellow, 
  Atlantic Council (Former State Department Coordinator for 
  Santions Policy, Former Assistant Secretary of State for 
  European and Eurasian Affairs, and Former United States 
  Ambassador to Poland)..........................................     8
McFaul, the Honorable Michael, Director, Freeman Spogli Institute 
  for International Studies, Ken Olivier and Angela Nomellini 
  Professor of International Studies, Department of Political 
  Science, Peter and Helen Bing Senior Fellow, Hoover 
  Institution, Stanford University (Former United States 
  Ambassador to Russia and Former Senior Director for Russian and 
  Eurasian Affairs at the National Security Council).............    22
Marten, Dr. Kimberly, Professor and Chair, Department of 
  Political Science, Barnard College, Columbia University........    60
Kara-Murza, Vladimir Chairman, Boris Nemtsov Foundation for 
  Freedom, Vice President, Free Russia Foundation................    76

                                APPENDIX

Hearing Notice...................................................   103
Hearing Minutes..................................................   104
Hearing Attendance...............................................   105

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Trone...........................................   106

 
    EXPOSING AND DEMANDING ACCOUNTABILITY FOR KREMLIN CRIMES ABROAD

                         Tuesday, July 7, 2020

                          House of Representatives,
                   Subcommittee on Europe, Eurasia,
                       Energy, and the Environment,
                      Committee on Foreign Affairs,
                                                    Washington, DC,

    The subcommittee met, pursuant to notice, at 2:06 p.m., via 
Webex, Hon. William R. Keating (chairman of the subcommittee) 
presiding.
    Mr. Keating. The House Foreign Affairs Committee will come 
to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point, and all members will have 
5 days to submit statements, extraneous materials and questions 
for the record, subject to the length limitation in the rules. 
To insert something into the record, please have your staff 
email the previously mentioned address or contact the full 
committee staff.
    Please keep your video function on at all times, even when 
you are not recognized by the chair.
    Members are responsible for muting and unmuting themselves, 
and please remember to mute yourself after you have finished 
speaking. Consistent with House Resolution 965 and the 
accompanying regulation, staff will only mute members and 
witnesses as appropriate, when they are not under recognition, 
to eliminate background noise.
    I see that we have a quorum present. I want to thank the 
members and the witnesses for being here. These are important 
times, even though we are doing this virtually, as you all are 
aware. This is an important subject matter, and I really 
appreciate the attendance of everyone.
    I will now recognize myself for opening remarks.
    Pursuant to notice, we are holding a hearing to discuss 
exposing and demanding accountability for Kremlin crimes 
abroad.
    Just over 1 week ago, news broke alleging that Russia had 
placed bounties on American troops in Afghanistan, that money 
changed hands between the GRU, Russia's military intelligence, 
and the Taliban, that Americans were killed in connection with 
this scheme, and that our agencies have had this intelligence 
since last year.
    These allegations have shocked our conscience. But threats 
from Russia are far more pervasive than even these reports 
indicate. Russia's activity targeting Americans has been 
occurring before and is occurring now and, if left unchecked by 
the U.S., will continue occurring in the future.
    However, just as egregious as the Kremlin's actions is the 
utter inaction and lack of an appropriate response from the 
Trump administration.
    I joined Chairman Engel and other members of this committee 
at the White House last week to be briefed on this 
intelligence, and our examination of this issue continues on 
this week, starting with this hearing today, followed by a full 
committee hearing on Thursday and a second hearing in the 
subcommittee on Friday. In the absence of action by the Trump 
administration, it is incumbent on Congress to act.
    Targeting Americans abroad is a brazen attack on the United 
States. However, we should not be surprised, as the GRU was 
also implicated in the 2016 attack on our election and is 
believed to be responsible for a range of malign activities, 
including those occurring abroad in 2018, with the attempted 
assassination of Sergei Skripal in the U.K. and the coup 
attempt in Montenegro as the country approached NATO 
membership.
    And the threat from Russia is not only specifically from 
Unit 29155 of the GRU. We will fail to keep Americans safe if 
we fail to understand the threat coming from the Kremlin 
itself.
    The Kremlin has invested in a network of actors operating 
around the world with little transparency around their funding, 
their authority, and often their relationship to the Kremlin. 
These actors include traditional elements of the GRU but also 
nontraditional actors, like the Wagner Group, a private 
military company with extensive links back to the Kremlin, a 
group that conducts military activities that directly support 
Kremlin foreign policy objectives.
    In fact, Wagner sources engaged directly in hostilities 
against U.S. forces in Syria in 2018. The Kremlin denied any 
connection, yet wounded survivors were reportedly thrown out of 
the conflict zone on Russian military aircraft. And Wagner's 
documented ties to the GRU and the Russian military abound.
    Further, when we look behind these actors to their sources 
of funding, we find deep corruption and crime. One key player 
is the oligarch and criminal Yevgeny Prigozhin.
    I was proud that Chairman Engel, along with our ranking 
member, Mr. Kinzinger, and a member of our subcommittee, 
Representative Brian Fitzpatrick, joined in introducing a 
resolution last month stressing that threat, the threat 
Prigozhin presents to the interest and security of the United 
States, our allies, and its partners.
    Prigozhin is not only linked to the Wagner Group, he also 
backed the Internet Research Agency, which you will recall from 
our own past history was responsible for operations against 
Americans in the 2016 election. And reporting has further 
documented that Prigozhin and associates are already working to 
target American audiences leading up to election this November.
    Bounties on American troops is a despicable escalation by 
Russia that demands a response. And we cannot afford to view 
these new revelations in a vacuum. We arrive at this moment 
following 3-1/2 years of what to any observer seems like a 
pattern of capitulation and accommodation by President Trump 
toward Putin.
    From siding with Putin over our intelligence community 
about the Kremlin's attack on the 2016 elections in Helsinki, 
to slow-walking sanctions that passed Congress with broad, 
bipartisan support, to suggesting Russia should be invited back 
to a newly constituted G8, even though Ukraine is still 
occupied by Russia and Kremlin-backed forces, the Trump 
administration has given Russia a wide berth to maneuver within 
and to antagonize the U.S. and our allies.
    We need a Russian policy, one that keeps Americans safe, 
not one that puts President Trump on good terms with the 
corrupt and criminal government of Vladimir Putin.
    Last week, voting concluded on a constitutional referendum 
on Russia which would make it possible for Putin to stay in 
power until 2036. While no one is surprised to learn that 
independent election observers and experts report widely fraud, 
manipulation, and voter intimidation, the results of this 
referendum in practice means that Putin's Russia is 
unfortunately the Russia the U.S. must face for the foreseeable 
future.
    I appreciate our uniquely qualified witnesses joining us 
today to discuss this critical juncture in our policy toward 
Russia. Our goal for today to examine the threat landscape and 
unique challenges presented in addressing instances of Russian 
aggression toward the United States and our allies and the 
malign actors the Kremlin has empowered to carry out these 
crimes.
    I hope this hearing and the ones that follow are used to 
build a coherent and effective policy to address these threats 
from the Kremlin. American lives and our national security 
depends on it. For too long now the Trump administration, as we 
have seen, has been woefully unprepared and lacking in its 
commitment to meaningfully counter these threats.
    I now yield to Representative Wilson for his opening 
statement.
    Mr. Wilson. Thank you to Bill Keating for holding this 
important hearing on exposing and demanding accountability for 
Russia's crimes abroad.
    I am grateful to recognize the great Russian patriot and 
democracy activist Vladimir Kara-Murza for being with us today. 
Your bravery and determination in pushing for a democratic 
future for the courageous Russian people continues to inspire 
us all and gives us hope for a better future.
    Mr. Chairman, in an ideal world, the U.S. and Russia should 
cooperate and work together to tackle important joint 
challenges, but such a partnership is impossible so long as the 
tyrant Vladimir Putin rules Russia.
    The last thing that Putin cares about is the will of the 
Russian people. This was evident last week when Putin 
orchestrated, as you correctly pointed out, a fraudulent vote 
to change the Russian Constitution so he can stay in power 
basically for his life.
    But Putin is not satisfied with repressing his own people 
at home. He seeks to export his tyranny and oppression abroad 
as an alternative authoritarian form of governance to 
democracy. This authoritarian world view best explains his 
aggressive foreign policy, based upon subverting democracy 
throughout the world through malign influence campaigns and 
redrawing borders with his aggressive assaults on democracy, 
such as Moldova, Georgia, and Ukraine, with 12,000 Ukrainians 
who have been killed due to Russian aggression.
    Furthermore, there is further troubling information that 
Russia is increasing support of the Taliban in Afghanistan, 
supporting an enemy which directly threatens American families.
    We must find more ways to hold Russia accountable and 
increase the costs of their mischief. As the chairman of the 
Republican Study Committee's National Security and Foreign 
Affairs Task Force, I released a report at the beginning of 
last month recommending the toughest package of sanctions on 
Russia ever proposed by Congress. The report also calls for 
important measures to support the democratic movements in 
Russia, including through reconstituting the U.S. Information 
Agency. The RSC's report was officially condemned by the 
Kremlin, which I took as a good sign that we did a good job.
    I also am grateful for President Trump's leadership, with 
additional sanctions that he has put in place. Additionally, 
his placing of troops in Poland was very, very significant, and 
his backing of the NATO troops, which now are in all the 
countries of the Baltics. And, finally, the President's courage 
to provide Javelin missiles to Ukraine to stop Russian 
aggression.
    I look forward to hearing more input from our expert 
witnesses here today on how we can hold Putin's feet to the 
fire and advocate on behalf of the Russian people.
    With that, I yield back.
    Ms. Hallman. Mr. Chairman, you are still muted, sir.
    Mr. Keating. I should be okay now. Sorry about that.
    Ms. Hallman. Perfect. Yes, sir.
    Mr. Keating. I have now done what everyone else or so many 
other people will do in the course of today, so I hope you 
learn from my mistake.
    I will introduce our panel of witnesses, and I am pleased 
to have them here today.
    Ambassador Daniel Fried is the Weiser Family Distinguished 
Fellow at the Atlantic Council. During his long and dedicated 
public service career, he served as the State Department's 
coordinator of sanctions policy, Assistant Secretary of State 
for European and Eurasian Affairs, and the United States 
Ambassador to Poland.
    Ambassador Michael McFaul is the Director of the Freeman 
Spogli Institute for International Studies, the Ken Olivier and 
Angela Nomellini Professor of International Studies in the 
Department of Political Science, and the Peter and Helen Bing 
senior fellow at the Hoover Institute, all at Stanford 
University. He served in the Obama Administration as the United 
States Ambassador to Russia and as Senior Director for Russian 
and Eurasian Affairs at the National Security Council.
    Dr. Kimberly Marten is a professor and chair of the 
Political Science Department at Barnard College at Columbia 
University. She concurrently serves as a faculty member of 
Columbia's Harriman Institute for Russian and East-Central 
European Studies and the Saltzman Institute of War and Peace 
Studies.
    Mr. Vladimir Kara-Murza serves as chairman of the Boris 
Nemtsov Foundation for Freedom and vice president of the Free 
Russia Foundation. He is a Russian democracy activist who 
played a key role in the passage of the Magnitsky legislation 
and is a recipient of the Magnitsky Human Rights Award for his 
work as an outstanding Russian opposition activist.
    Thank you for your courage and your dedication.
    I will now recognize each witness for 5 minutes. Without 
objection, your prepared written statements will be made part 
of the record. I will go first to Ambassador Fried for his 
opening statement.
    Ambassador Fried.

    STATEMENT OF THE HONORABLE DANIEL FRIED, WEISER FAMILY 
DISTINGUISHED FELLOW, ATLANTIC COUNCIL (FORMER STATE DEPARTMENT 
COORDINATOR FOR SANCTIONS POLICY, FORMER ASSISTANT SECRETARY OF 
  STATE FOR EUROPEAN AND EURASIAN AFFAIRS, AND FORMER UNITED 
                  STATES AMBASSADOR TO POLAND)

    Mr. Fried. Thank you, Mr. Chairman, Ranking Member Wilson. 
It is an honor to be here and with a panel of people whose work 
I have admired for years.
    Putinism means authoritarianism and kleptocracy. It 
enriches Putin and his team but keeps Russia poor and backward. 
It is getting worse. The coronavirus has hit Russia harder than 
official statistics indicate. Russia's economy has been hit by 
the global drop in energy prices. Putin has changed the 
Constitution so he can stay President until 2036.
    Political stagnation, economic decline, and the coronavirus 
make the Putin regime insecure because it cannot deliver. So 
the regime will likely step up repression at home and continue 
to attack made-up outside enemies, especially the United States 
and other democracies.
    Putinism is not Russia's fate, but for now we need to deal 
with Putin's regime as it is. We have options.
    First, do not extend to Putin invitations to the G8 or make 
other gestures that suggest the U.S. is eager to overlook his 
malign policies.
    Beyond this, policy actions could include the following:
    Strengthen NATO. After Putin's attack on Ukraine, President 
Obama led NATO to move battalion-strength forces to Poland and 
the Baltic States and deployed a rotational U.S. armored 
brigade to Poland. In 2019, the Trump administration announced 
plans to move more U.S. support forces to Poland. That was 
solid work. But President Trump's decision to pull forces out 
of Germany is wrong. The President complained about German 
defense spending in support for the Nord Stream II gas 
pipeline. He had a point. But U.S. forces in Germany do not 
serve German interests; they serve U.S. and NATO interests.
    Support Ukraine. Ukraine's democratic, free-market 
transformation would be a success for Ukraine and the free 
world and a defeat for Putinism. It would demonstrate that a 
Russian-speaking country, which Ukraine partly is, can move 
toward European standards of governance, that Putinism is not 
Russia's only choice. We should support Ukraine's independence 
and push it to transform itself along free-market, democratic 
lines.
    Counter disinformation. The U.S. and Europe are better 
placed to deal with disinformation than in 2016, though the EU 
is ahead of us. We should work with social media companies to 
expose and limit Russian disinformation, support civil society 
groups, and prepare thoughtful regulation to support online 
transparency and integrity.
    European energy security. Putin has abused Russia's status 
as a major supplier of European natural gas for political 
leverage. Ukraine, Poland, and the Baltics fear that Nord 
Stream II will make them even more vulnerable. Many other 
Europeans agree. Congress has passed sanctions on Nord Stream 
II and is considering more. I oppose Nord Stream II. But there 
may be ways to mitigate its risks at less cost to U.S.-German 
relations.
    Developments over 10 years have reduced Russian energy 
leverage over Central Europe: smaller gas pipelines to move gas 
east to Central Europe and Ukraine; more LNG from the U.S. and 
other sources; and the anti-monopoly provisions of the EU's 
Third Energy Package. The U.S., EU, Poland, and Germany should 
intensify efforts along these lines and support the Three Seas 
Initiative, notwithstanding differences over Nord Stream.
    Financial transparency. Putinism relies on the Western 
financial system to raise capital while attacking the West. 
Putin and his cronies use it to safeguard and conceal their 
enormous personal wealth, often acquired through corruption. We 
should not allow Putin's team to use and abuse our own system. 
The U.S. needs to work with the EU and U.K. to strengthen rules 
for financial and investment transparency, including beneficial 
ownership disclosure. We should also expose and publicize the 
personal wealth of Putin and his chief cronies.
    Sanctions. The U.S. designed its sanctions program on 
Russia with escalatory options. We should not use all of these 
in response to the alleged GRU bounty on U.S. forces, but we 
can use some: intensified restrictions for military and dual-
use energy technology; reestablishment of an allied 
coordination mechanism for such restrictions; additional 
sanctions against Russian individuals, those in the GRU or 
oligarchs or cronies either close to Putin or the Russian 
military, and possibly a Russian State-owned bank or financial 
institution with connections to the GRU.
    Finally, the United States needs to bring the free world 
together. We need a Russia policy that defends U.S. interests 
and values, brings together our allies, and reaches out to 
Russian society.
    It is hard for this administration to articulate such a 
policy because the President's own view of Putin seems so 
charitable. Indeed, the President seems to prefer tyrants 
generally, not just Putin, seems to disdain the free world the 
U.S. has led since 1945, and regards the U.S. as an isolated, 
self-serving power operating along the principle of ``might 
makes right.''
    That is not an approach that challenges Putin or Chinese 
President Xi. It is an approach that accepts their world view. 
It is an approach that would diminish the United States from 
being the leader of the free world to just another grasping 
great power. It would undo the basis of American leadership 
since 1945, a period which, despite our mistakes, 
inconsistencies, failures, and downright blunders, also 
generated the world's longest period of general peace and 
unprecedented global prosperity.
    The United States needs to lead again. We need to make the 
rules-based international system work better, including better 
for more Americans. We need to grapple with new challenges--
climate change, pandemics, new technologies, and more--and old 
problems of race, equity, and justice. We need to take our old 
best principles and apply them in new ways. That is how we will 
prevail over Putin and other authoritarians who think, 
mistakenly, that their time has come.
    Thank you, Mr. Chairman, and I look forward to this 
hearing.
    [The prepared statement of Mr. Fried follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. Thank you, Ambassador Fried.
    I now recognize Ambassador McFaul for his opening 
statement.

 STATEMENT OF THE HONORABLE MICHAEL MCFAUL, DIRECTOR, FREEMAN 
  SPOGLI INSTITUTE FOR INTERNATIONAL STUDIES, KEN OLIVIER AND 
ANGELA NOMELLINI PROFESSOR OF INTERNATIONAL STUDIES, DEPARTMENT 
   OF POLITICAL SCIENCE, PETER AND HELEN BING SENIOR FELLOW, 
 HOOVER INSTITUTION, STANFORD UNIVERSITY (FORMER UNITED STATES 
AMBASSADOR TO RUSSIA AND FORMER SENIOR DIRECTOR FOR RUSSIAN AND 
       EURASIAN AFFAIRS AT THE NATIONAL SECURITY COUNCIL)

    Mr. McFaul. Thank you, Chairman Keating, Ranking Member 
Wilson, and other members of this committee, for having me 
today.
    I have testified many times, but this is the first time I 
have done it in my socks.
    I have submitted a longer written testimony which covers 
all the questions I was asked to address today. Many of them, 
by the way, echo what Ambassador Fried just said right now. In 
my 5 minutes, I just want to highlight a few points.
    First, as a caveat, I want to underscore that we still need 
greater clarity about what Putin did in Afghanistan and how 
Trump responded. My testimony today is just informed by what 
has been in the press.
    The facts so far on the intelligence that we have learned 
are deeply troubling, and the facts on Trump's decisionmaking 
regarding this intelligence are equally disturbing. Both, 
however, Putin's behavior and Trump's behavior follow a 
consistent pattern. We should be disturbed but not surprised by 
this latest episode.
    First, Putin. I think it is really important to understand 
these patterns. We sometimes forget about them and just respond 
to the latest news. I want to remind you of the pattern. For 
several years now, Putin has behaved like a rogue actor in the 
international system, brazenly defying norms, rules, and laws 
and daring us to stop him.
    In 2008, Putin invaded Georgia and recognized the Georgian 
regions of Abkhazia and South Ossetia as independent States, in 
violent violation of international law.
    In 2014, Putin annexed Crimea, violating one of the most 
sacred norms of the international system since the end of World 
War II. No Soviet leader since Stalin had ever annexed 
territory during the cold war.
    In 2015, Putin deployed his air force to Syria to prop up a 
ruthless dictator, Mr. Assad, who has used illegal chemical 
weapons to kill innocent civilians. A U.N. panel has accused 
the Russian military of committing war crimes for bombing the 
Syrian civilians indiscriminately.
    In 2016, Putin, of course, violated our sovereignty, 
American sovereignty, deploying multiple methods to try to 
influence the outcome of our Presidential election and amplify 
polarization in American society.
    In 2018, as already mentioned by the chairman, Putin tried 
to assassinate Sergei Skripal in the United Kingdom.
    In 2019, Putin's agents allegedly murdered Zelimkhan 
Khangoshvili, a Chechen Georgian citizen, in Berlin.
    And just last week, another Chechen dissident was 
assassinated in Austria.
    So this latest action follows a pattern of lawless, rogue 
behavior.
    Second, Trump. President Trump's nonresponse so far also 
follows a consistent pattern. As a candidate and ever since, 
Trump has repeatedly said admiring things about Putin and never 
a critical word.
    In 2016, when asked about Putin's oppressive ways, Trump 
responded, ``Well, I think our country does plenty of killing 
also.''
    In 2017, when asked about these methods again, having a 
chance to correct the record, Trump defended the Russian leader 
by criticizing the United States of America, arguing, ``We've 
got a lot of killers. What, do you think our country is so 
innocent?''
    In 2018, perhaps most shockingly, Trump stood next to Putin 
at their summit in Helsinki and sided with Putin over our own 
intelligence community in stating that he did not believe that 
Russia interfered in our 2016 Presidential election.
    In 2019, in Osaka, Trump and Putin laughed together about 
the evils of the independent media. Trump said, ``Get rid of 
them. 'Fake news' is great term, isn't it? You do not have this 
problem in Russia, but we do.'' Putin replied, ``We also have 
the same.''
    So, in 2020, Trump's refusal to criticize Putin for his 
latest act, if true, is shocking and depressing but it is not 
surprising. It follows a pattern.
    Asking, therefore, what the Trump administration should do 
in response I think is a futile exercise. I agree with all of 
the points Ambassador Fried just raised. I outline them in my 
written testimony. But if Trump himself will not acknowledge 
Putin's belligerent behavior, what good does it do to encourage 
him to respond to Putin?
    Instead, however, I want to recommend that the Congress, 
independent of the White House, take three or four steps right 
now.
    First, proceed with more hearings. I congratulate what you 
are doing. The American people, especially those who send their 
daughters and sons overseas to defend our country, have the 
right to know the facts.
    Second, Congress should pass the DETER Act. We need to do 
all we can to stop Russian interference in our presidential 
election right now, especially on Election Day. I am really 
afraid of what they might do on Election Day. The DETER Act 
helps.
    Third, Congress should enact new legislation to make Radio 
Free Europe/Radio Liberty an independent, nongovernmental 
organization with an independent board and a direct 
appropriation from the U.S. Congress. Doing so would be one 
more step of many others needed to counter Russian propaganda 
and disinformation.
    In the long run, not unlike the cold war, we need a 
bipartisan strategy to contain, deter, isolate, and sometimes 
engage Putin's Russia for the long haul. He is going to be 
around for a long time. I have outlined some of the broad 
contours of what that strategy might be in my written remarks, 
and I hope we might have some time in questions and answers to 
talk about them.
    Thank you for having me.
    [The prepared statement of Mr. McFaul follows:]

                                 MCFAUL
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Keating. Thank you, Ambassador.
    Now we will recognize Dr. Marten for your opening 
statement.

    STATEMENT OF DR. KIMBERLY MARTEN, PROFESSOR AND CHAIR, 
  DEPARTMENT OF POLITICAL SCIENCE, BARNARD COLLEGE, COLUMBIA 
                           UNIVERSITY

    Dr. Marten. Thank you, Chairman Keating and Ranking Member 
Wilson and members of the subcommittee, for giving me the 
opportunity to testify today.
    My written testimony contains a lot more detailed 
information, but in the 5 minutes that I have here I am going 
to use my introductory remarks to highlight two things. The 
first is how the Russian political system operates today, and 
the second is to talk about the Wagner Group and how it fits 
within it. I have been doing deep research on the Wagner Group 
and Yevgeny Prigozhin for the past 2-1/2 years, and that is the 
basis for my testimony today.
    As Chairman Keating pointed out, the Wagner Group is often 
called a private military company, but it really is not. It is 
very closely connected to the GRU, to the Russian military 
intelligence agency. And, in fact, the Wagner Group has changed 
so much over the years that, rather than thinking of it as a 
company or a firm with an organizational structure, we might 
think of it as just a name for an activity that the Russian 
State carries out.
    So what about how the Russian system operates? The Russian 
system is based on interlocking patronage networks among the 
elite. What do I mean when I say ``patronage''? It means people 
at the top are expected to take care of the people underneath 
them in the hierarchy, and people who are lower down in the 
hierarchy are expected to be loyal to those at the top.
    And, in Russia, laws are actually made to be broken, and 
when you are in the patronage network, you understand who is 
allowed to break the laws and how. And so those who are within 
that network are given a roof, they are given protection to 
break the laws. And the people who go to prison in Russia are 
either outsiders who are not in that network or people who have 
showed disloyalty to the network. So you are in prison not for 
the crimes you have committed but for the disloyalty that you 
have shown to those above you in the hierarchy.
    Now, everyone at the top or almost everyone at the top has 
broken a lot of laws, and that makes everybody vulnerable, and 
that is what keeps the Russian system operating. That is why we 
can have Putin potentially stay in power until 2036 and, 
despite the problems in Russia, there is unlikely to be a lot 
of effort to try to change the system drastically. Because the 
people who benefit, who have power from the current system, are 
all vulnerable if they are trying to get out, and everybody is 
protecting each other.
    Into this mix we find the Wagner Group, which first 
appeared in 2014 in eastern Ukraine. Now, private military 
companies are technically illegal, even unconstitutional, in 
Russia today. Yet Putin has mentioned Wagner publicly and has 
said, ``Let them do whatever they want to, all over the world. 
Let them make money doing it, as long as they do not break any 
laws at home.'' But since they are illegal at home, that gives 
you a sense of just how corrupt and two-faced the Russian 
system is when it comes to illegality.
    A lot of people have referred to the Wagner Group as 
mercenaries, but they are really not. They do work for pay when 
they are going out on contract, but they are fiercely 
patriotic, and they only act when they believe they are doing 
so on behalf of the Russian State. And, in fact, all the 
evidence we have about where they have operated indicates that 
a Russian State ministry of one kind or another has always 
helped negotiate the contracts for where they are employed 
abroad. So they are really a member of the Russian state, as 
has been talked about previously.
    The owner, or contractor, was revealed to be Yevgeny 
Prigozhin in 2016. And, as Chairman Keating noted, he should be 
familiar to everybody for being under indictment and sanctions 
in the United States. Everywhere that Wagner goes, Prigozhin 
has some sort of a mining contract or energy contract, where 
Wagner troops are also being employed to guard those mining and 
energy fields for his private benefit.
    To the Wagner Group is used so often because it gives Putin 
plausible deniability for the many military adventures that he 
is conducting abroad. And the plausible deniability does not 
matter so much for people in the international community, 
because the Wagner Group is now followed by high-quality 
investigative journalists everywhere they go, so we know what 
they are doing and where they are. Where it matters is to 
Putin's domestic audience, his political base, the people who 
are ordinary workers and ordinary retired folks who get their 
news from Russian State media.
    And what it allows Putin to do is engage in lots of foreign 
adventures without having to bear the costs at home, without 
having especially to bear the casualties that would be accruing 
to uniformed Russian troops if they were instead sent on those 
missions. We know that the Wagner Group has suffered casualties 
in Ukraine, Syria, Libya, Mozambique--all part of Putin's 
adventures.
    In my written testimony, I talk about two cases in depth, 
the Central African Republic and Libya, where the Wagner Group 
is deployed currently. But in the closing moment that I have, 
let me just talk about what the U.S. might do in response to 
the Wagner Group's and Prigozhin's activities.
    Unfortunately, sanctions do not seem to have stopped very 
much what it is that they are doing, because they can just find 
places to go in the world where there is not reciprocity with 
the United States, where the sanctions and the indictments do 
not have a lot of bite.
    But as we are thinking about responding to them, I would 
ask us to keep two things in mind.
    First, we can engage in messaging, especially toward 
ordinary people in the Middle East and Africa. Let them know 
just what it is that Putin is up to, that Russian troops kill 
innocent civilians, that the Wagner Group carries out a lot of 
human-rights violations everywhere it goes, that they are often 
not even very effective--they do not tend to be gaining a lot 
of success for, Russia militarily--and that Prigozhin is a 
lifelong organized criminal who is taking the natural resources 
of these communities and using them for his own profit without 
sharing the benefits back to these communities.
    And the second thing that our troops in the field should be 
aware of is that the Wagner Group may be there and may be 
targeting them. And we have so much evidence of Russia, in 
underhanded ways, trying to threaten U.S. forces in the field 
that it is just very important that we keep our defenses up and 
that we expect Russian malfeasance and Russian bad behavior and 
are prepared to deal with it.
    So thank you very much. I will leave it there.
    [The prepared statement of Ms. Marten follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. Thank you, Doctor.
    And I will call on Mr. Kara-Murza for your 5 minutes of 
opening remarks.

   STATEMENT OF VLADIMIR KARA-MURZA, CHAIRMAN, BORIS NEMTSOV 
 FOUNDATION FOR FREEDOM, VICE PRESIDENT, FREE RUSSIA FOUNDATION

    Mr. Kara-Murza. Chairman Keating, Congressman Wilson, 
members of the subcommittee, thank you so much for holding this 
important hearing and for the opportunity to testify before 
you.
    Two decades ago, when Vladimir Putin first came to power, 
many in the West were asking who this man was and where he 
would take Russia. I remember the day when I and many of my 
colleagues in the Russian democratic movement knew the answer.
    On December 20, 1999, Mr. Putin, still as Prime Minister, 
went to the former KGB headquarters in Lubyanka Square in 
Moscow to officially unveil a memorial plaque to Yuri Andropov.
    Now, Andropov was someone who epitomized both the domestic 
repression and the external aggressiveness of the Soviet 
system. As Ambassador in Hungary, he was among those who 
oversaw the 1956 invasion. As chairman of the KGB, he directed 
the suppression of domestic opposition, imprisoning and 
targeting dissidents.
    Russia is a country of symbols. A symbol like a memorial 
plaque to Yuri Andropov is unmistakable.
    Domestic repression and external aggression often go hand-
in-hand for authoritarian regimes, and Mr. Putin has 
demonstrated this linkage most clearly.
    His early years were dedicated to consolidating his rule at 
home, turning Russia from an imperfect democracy into a perfect 
dictatorship. Independent television networks were taken down. 
Political opponents were exiled and imprisoned. Elections were 
turned into meaningless rituals and parliament into a rubber 
stamp.
    In what became the most high-profile political 
assassination in the modern history of Russia, in February 
2015, opposition leader Boris Nemtsov was gunned down in front 
of the Kremlin. To this day, the organizers and masterminds of 
his assassination remain unidentified and unindicted.
    But autocrats rarely stop at their own borders. The 
invasion of Georgia, the military incursions into eastern 
Ukraine, the annexation of Crimea--this is only what was done 
by official means. In many other cases, the Kremlin hid behind 
plausible, or sometimes less than plausible, deniability. A 
slate of murders and attacks against opponents or perceived 
traitors abroad, from the United Kingdom to Germany to Austria, 
serves as a case in point.
    The Kremlin has set up a shadow security force, a private 
military organization known as the Wagner Group, and overseen 
by close Putin confidant Yevgeny Prigozhin, to carry out 
military actions, suppressive operations, and disinformation 
campaigns abroad. And Professor Kimberly Marten just spoke in 
detail about this organization.
    Wagner mercenaries have been fighting in eastern Ukraine; 
supporting the regime of Bashar al-Assad in Syria, where they 
led a direct assault on U.S. troops, as you mentioned, Mr. 
Chairman; operating in Libya against the internationally 
recognized government; propping up Nicolas Maduro in Venezuela 
in the face of popular protests; and effectively running 
several countries in Africa, most prominently the Central 
African Republic, where three Russian journalists--Orkhan 
Dzhemal, Kirill Radchenko, and Alexander Rastorguyev--were 
murdered in July 2018 while investigating Wagner's activities.
    In the absence of an independent judicial system, a 
democratically elected parliament, and a viable free press in 
Russia, it is important to hold the Kremlin to account for its 
abuses using international mechanisms. And I would like to 
emphasize three areas in particular.
    Now, first, the U.S. legislative framework provides for 
targeted sanctions on individuals responsible for human-rights 
abuses. And I am referring, of course, to the Magnitsky Act and 
the Global Magnitsky Act that have been used by the U.S. 
Government to sanction, for example, an organizer in the 
assassination of Boris Nemtsov and the perpetrators of the 
murder of Alexander Litvinenko. These laws are effective and 
should be used more actively.
    Second, individual congressional measures are important in 
focusing the attention on those abusers and in countering the 
impunity they have gotten so used to at home. And, in this 
regard, I would like to highlight House Resolution 996 that 
would designate the activities of Yevgeny Prigozhin and the 
Wagner Group as a threat to U.S. national security and would 
urge further sanctions on them in cooperation with the European 
Union.
    And I want to take this opportunity to thank the chairman 
and ranking member of the subcommittee, Representative Keating 
and Representative Kinzinger, for cosponsoring this resolution 
and to express my hope that it will be passed in the current 
Congress.
    Third and very important, as you all know, last week 
Vladimir Putin signed constitutional amendments that waive 
Presidential term limits, allowing him to remain in power until 
2036. This procedure was rubber-stamped in a plebiscite that 
violated the most basic democratic standards and that was 
widely assessed as fraudulent.
    As the bipartisan leaders of the United States Helsinki 
Commission, Congressman Alcee Hastings of Florida and Senator 
Roger Wicker of Mississippi have said, and I quote, ``State-
sponsored fraud, coercion, and obfuscation make it impossible 
to know the true will of the Russian people,'' end of quote.
    By flagrantly subverting term limits, Vladimir Putin is 
becoming illegitimate not only de facto but de jure, now in the 
same rogue league of dictators who had used this trick before 
him. This change--and that is very important.
    This change should be reflected in policy. In particular, 
Western leaders--the leaders of Western democracies should not 
afford Mr. Putin the legitimacy and prestige he no longer has 
any claim to, either in the form of invitation to international 
summits or in the form of high-level bilateral meetings and 
visits.
    I look forward to the day Russia can return to the G8 as a 
full member, but this should only happen once my country has a 
democratically elected government that will both respect the 
rights and freedoms of its own people and behave as a 
responsible citizen on the global stage.
    I thank you very much for this opportunity to testify, and 
I look forward to your questions.
    [The prepared statement of Mr. Kara-Murza follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. Thank you, Mr. Kara-Murza.
    And thank all of you for your testimony.
    I will now recognize members for 5 minutes each pursuant to 
House rules. All time yielded is for the purposes of 
questioning our witnesses. Because of the virtual format of 
this hearing, I will recognize members by committee seniority, 
alternating between Democrats and Republicans. If you miss your 
turn, please let our staff know, and we will circle back to 
you. If you seek recognition, you must unmute your microphone 
and address the chair verbally.
    And I will start by recognizing myself.
    The most sensitive conversations I have had in my life I 
think surrounded conversations I had with my father and my 
grandmother that surrounded the circumstances and the actions 
surrounding my uncle being killed in action. And I think, as we 
have this hearing and seek answers to questions, first and 
foremost, we owe the family members of those who lost their 
lives defending our country, who might be questioning right now 
who is behind making any payments or having paramilitary or 
private military organizations responsible for that, 
particularly from Russia.
    So the common thread I heard with all our witnesses, dating 
back to Putin's KGB days to the present, built in to all of his 
actions, very carefully and seemingly very importantly, is 
making sure there is deniability.
    So I have this question for our witnesses. You can jump in 
as you see fit. You have all recognized how important it is to 
have accountability, but how important is it for the President 
of the United States to penetrate all those veils of 
deniability and to seek, unambiguously, accountability for the 
Russians and Vladimir Putin for their actions?
    Mr. Fried. Mr. Chairman, since you invited us to jump in, I 
will jump.
    I think it is important for the President, but not just the 
President, to speak honestly and openly about the nature of 
Putinism and Russian malign behavior.
    As I said in my testimony, this administration, the Trump 
administration, has done some things with which I agree. They 
have taken good steps. But President Trump's own silence and 
his obfuscation and his public defense of Putin undercuts this. 
So we need a policy to which all levels of the U.S. Government 
adhere.
    And we also need to express that to the Russian people. 
Let's remember that Putinism is not necessarily the final word 
in Russia's political development. He likes to be. He sort of 
claims he is. But he is not. Not necessarily. And we need to 
get that word out to the Russian people, as we did using Radio 
Liberty in the cold war but now using new means.
    So, from top to bottom, speak the truth and get the word 
out.
    Mr. Keating. Thank you. That is the purpose of this 
hearing, Ambassador.
    I recall Putin's--I recall comments in Hungary, where he 
said that, oh, the U.S. is finally admitting that Ukraine was 
responsible for the attack on their elections, and how he uses 
that.
    Can we speak, too, of the importance in his own country of 
being unambiguous and being accountable for his actions? Does 
anyone want to jump in there?
    Mr. McFaul. Well, Mr. Chairman, if I could jump in, I will 
let Vladimir talk about inside, but I want to underscore a 
point that Ambassador Fried made.
    No. 1, you know, in the early days of the administration, 
my colleagues in the Trump administration always said, ``Don't 
listen to what the President says. Look at what we do.'' And I 
agree with Ambassador Fried; I think the new funding and troops 
for NATO has been a good thing. Lethal assistance to Ukraine 
has been a good thing. Speaking out about democracy and human 
rights, fantastic. Ambassador Sullivan, I think, is doing a 
fabulous job in Moscow right now.
    But on all three of those and many more, the President 
undermines the policy. So is our NATO unity better today than 4 
years ago? Nobody would say we are better today than 4 years 
ago. The U.S.-Ukraine relation, a complete mess because of the 
politicization of that military assistance. And when the 
President does not speak about democracy and human rights, it 
makes it very difficult for lower-level officials to do so and 
have any credibility.
    But there is another piece that I think was very important 
in your question. Sometimes the U.S. Government has to 
declassify secret intelligence to expose and embarrass foreign 
government officials.
    I was in the government in 2009 at the U.N. General 
Assembly when we made the decision, the Obama Administration 
made the decision, to declassify what used to be very sensitive 
information about the Iranian nuclear program. And I sat in the 
White House Situation Room while we decided to do that. Lots of 
people said, well, this is going to expose our intelligence 
resources and means for gathering this. And we decided to make 
that decision so that we could create a coalition that later 
led to U.N. Security Council Resolution 1929, the most 
comprehensive multilateral sanctions against Iran ever.
    It was the declassification of that information, done in a 
very public way, in New York, with all the leaders of the world 
there, that led to that coalition. And I think this is a moment 
where it would be very appropriate to use a similar tactic.
    Mr. Kara-Murza. Mr. Chairman, could I quickly comment on 
the first point you made, because I think it is very important, 
when you asked about going after the Kremlin's deniability or 
supposed deniability.
    I think the best tool, or the most effective tool, against 
authoritarianism is transparency. And I think it is very 
important for democratic nations to kind of have the truth out, 
whether it concerns, for example, the corruption and the 
illicit financial flows, as we have seen 4 years ago with the 
publication of the Panama Papers.
    You know, everybody knows in Russia that those $2 billion 
in that offshore jurisdiction belonged to Vladimir Putin, but 
ostensibly it was hidden in the name of his longtime friend 
from his days in Leningrad, you know, a man by the name of 
Sergei Roldugin, a cellist. I remember a lot of people said in 
Moscow at the time, you know, we all thought that Paul 
McCartney was the richest musician in the world. Apparently, it 
is some guy who nobody has ever heard of, because he is hiding 
Putin's money.
    It is things like this. It is also things like the 
activities of the Wagner Group and making it absolutely clear, 
as Professor Marten said a few minutes ago, that everything the 
Wagner Group is doing, that, in fact, is the Kremlin regime and 
Vladimir Putin just hiding behind this facade.
    And, you know, I have read again through the draft 
resolution that you cosponsored, H. Res. 996, before the start 
of this hearing, and I want to thank you again for 
cosponsoring. And I hope that it will be passed and have 
official force soon, because it is very important in exposing 
the truth and in undermining that plausible deniability of the 
Kremlin.
    On your question about domestic accountability for Vladimir 
Putin, as I mentioned in the opening statement and as you all 
know very well, Vladimir Putin has used his years in power to 
destroy all mechanisms of domestic accountability. You know, 
our parliament is a voiceless rubber stamp with no genuine 
opposition; our elections are meaningless rituals with 
prearranged results; all of our national television networks 
are directly controlled by the State; and so on and so forth.
    The only effective way for Russian citizens, for Russian 
society to protest against the system and to protest against 
this regime is to go out into the streets, as we have seen many 
times in the last few years, beginning with the big pro-
democracy protests in 2011-2012 and with the anti-corruption 
protests around the country in 2017 and 2018 and, most 
recently, last year, with the mass protests in Moscow against 
the removal of opposition candidates from municipal elections.
    And, 1 day, this is how change will come to Russia. In the 
system that Vladimir Putin has created, change can only come 
through the streets, not through the ballot box.
    And, you know, I have yet to actually meet anybody in 
Russia who seriously believes that Vladimir Putin will be able 
to stay in power until 2036. Given the clear trends in Russian 
public opinion, which are turning against this regime, I think 
it is very implausible that he will be able to stay in power 
for that long.
    But it is very important that, while the regime remains in 
power and for however long it remains in power, it is important 
to use the international mechanisms of oversight and 
accountability to hold the Kremlin to account.
    And those mechanisms exist. Russia, as you know well, is a 
member of the OSCE, the Organization for Security and 
Cooperation in Europe, as is the United States of America. 
Russia is a member of the Council of Europe and has ratified 
the European Convention on Human Rights. All of these 
instruments contain very strong international levers of 
oversight and accountability.
    And I want to use----
    Mr. Keating. Be quick.
    Mr. Kara-Murza [continuing]. Just two specific examples in 
this regard. One concerns the assassination of Boris Nemtsov, 
which I mentioned in my opening statement, the most high-
profile political assassination in the modern history of 
Russia.
    A few months ago, just before this quarantine began, my 
colleagues and I were in Vienna at the winter session of the 
OSCE Parliamentary Assembly, where, in the presence of the U.S. 
delegation--and Congressman Wilson was present there--the OSCE 
rapporteur, Margareta Cederfelt from Sweden, presented a 
comprehensive and detailed report, oversight report, on the 
Nemtsov case, making the I think very obvious conclusion that 
the reason for the impunity of the organizers of the 
assassination is not because Russian law enforcement lack the 
ability but because the Russian Government will not allow them 
because there is no political will. And things like this are 
very important.
    And, second and finally, I think it is this plebiscite that 
all of us refer to. I think it is very important that those 
strong statements that we have been hearing in the last few 
days about the fraudulent nature of this plebiscite be actually 
reflected in policy and that there is a clear move toward a 
policy of nonrecognition, of Vladimir Putin as an illegitimate 
dictator that he now is, certainly after the end of his current 
mandate in 2024.
    Mr. Keating. Well, thank you very much.
    The clock in my head made it clear that we were over the 5 
minutes, and I did not know if you were seeing in your screen 
the timer. I am not seeing it in mine. But if the staff could 
help the witnesses and our members keep track of the time, that 
would be helpful, if that can be done.
    I will now recognize the ranking member, Mr. Wilson, for 
his questions.
    And thank you all.
    Mr. Wilson. Chairman Keating, thank you very much. And I 
was so much appreciative of the persons testifying, I wasn't 
about to point out 5 minutes was up. But you can point it out 
for me.
    And so, again, I am just really grateful. As a student of 
Russian history, I appreciate the comments and, gosh, the 
expertise of everyone who is here today. And I still am so 
hopeful, 1 day, indeed, that the extraordinary people of Russia 
can be free.
    Mr. Kara-Murza, last week's nationwide vote--and you have 
correctly questioned its legitimacy--paved the way for Putin to 
remain in power until 2036. But signs indicate the Russian 
people aren't buying the rigged vote nor the regime's attempt 
to provide legitimacy on what was in reality a power grab.
    I am concerned that, as you cited the waning public 
support, could this lead to a more aggressive Russia?
    Mr. Kara-Murza. Thank you very much, Congressman Wilson, 
for your question.
    And you are absolutely right that the trends in Russian 
public opinion make it absolutely clear that Vladimir Putin 
could not have won an honest referendum, an honest vote on the 
continuation, on the prolongation of his mandate.
    There are always important caveats about measuring public 
opinion in an authoritarian system, where a lot of people do 
not have access to information and also where a lot of people 
are hesitant to State their opinion for the reason of, you 
know, obvious potential consequences. Imagine you are sitting 
in your house somewhere in Russia and get a knock on your door, 
and somebody you have never seen before asks you, you know, 
``What do you think of Vladimir Putin?'' What are you going to 
say? This is not very meaningful.
    But even with all of those caveats, the trends in Russian 
public opinion have been absolutely clear. A few weeks ago, the 
Levada Center, which is the last more or less reliable 
independent pollster in our country, revealed, for example, 
that the level of public confidence in Vladimir Putin, in an 
open-ended poll, has plummeted to 25 percent, down from about 
60 percent 3 years ago.
    And I think a much more telling poll, even, that came out 
over the spring showed that a clear majority of Russian 
citizens, 58 percent, want to age-limit the Presidency at 70 
years of age. And Vladimir Putin, as everybody knows, will turn 
72 in 2024. So I think it is kind of a safe, euphemistic way 
for opposing Putin's rule without pronouncing his name.
    And so it is clear to everyone, including the Kremlin, that 
they could not have won an honest vote about this. And this is 
why they organized this sham with no independent or 
international observers, with no oversight control over the 
ballots that were stored for 1 week while the voting was going 
on. For 1 whole week, every night, they were stored in 
electoral commissions with no opportunity to prevent, you know, 
tampering. When all the public-sector employees were coerced 
all over the country to go and participate in this sham. We 
know that, while all the government resources were mobilized to 
ensure a ``yes'' outcome, the ``no'' campaign had their website 
blocked and their rallies prohibited, of course under the 
pretext of concern for public health during the pandemic. And 
so on and so on forth.
    So I think it is absolutely clear, and we are seeing this 
in these statements that have been coming out in the last few 
weeks from the leaders of Western democracies, including in the 
United States, that nobody is accepting this sham and nobody is 
accepting this spectacle that Putin has organized.
    And I think it is very important that these statements do 
not just stop at the analysis but actually move into the realm 
of policy and that the leaders of the democratic nations of the 
world, backed by the United States of America, make it 
abundantly clear that they will no longer afford Vladimir Putin 
the legitimacy or the prestige that he so desperately craves 
but he has no longer any right to.
    Mr. Wilson. And I want to thank you for the specifics of no 
international observers and the storage of the ballots. So, how 
absurd.
    Dr. Marten, I am really concerned for the Ukraine if the 
Nord Stream II pipeline proceeds. What actions can the United 
States take to protect Ukraine and other allies from Russian 
energy weaponization?
    Dr. Marten. Well, I am less of an expert on Ukrainian 
energy matters than I am on the Wagner Group, but I will try as 
best I can to answer your question, Ranking Member Wilson.
    My sense is that we have to keep in mind when we are 
thinking about pipelines that pipelines go in two directions. 
And that means that Russia is as dependent on the recipients of 
its natural gas as those recipients are on Russia.
    And I am not sure that there is much that the United States 
can do to stop those pipelines from going ahead, but what we 
might do instead is work with our allies in Europe to try to 
find alternatives for Ukraine so that Ukraine is not dependent 
on Russian energy supplies, as it has been in the past, that it 
develops its own resources, that it diversifies its energy 
supply, and to think perhaps less about focusing our energies 
on punishing Russia, since that does not always seem to stop 
Russian behavior, but instead positive actions that we can take 
with our allies to provide alternatives to what is really 
Russian bad behavior.
    Mr. Wilson. Well, hey, for somebody who is not familiar 
with the issue, you certainly answered it well. Thank you very 
much.
    And I yield back.
    Mr. Keating. Thank you, Representative.
    For those of you that want to keep track of your own time, 
I have been informed, if you hit in the upper right-hand part 
of the screen, there is a grid of everyone, and there will be a 
timer present.
    If people want, I will gently tap when you hit 5 minutes. I 
do not want to hold people's feet to the fire that closely, but 
just to give you an idea.
    With that, I will recognize the vice chair of the 
committee, the gentlelady from Virginia, Ms. Spanberger.
    Ms. Spanberger. Thank you so much, Mr. Chairman.
    And thank you to our witnesses today for participating. I 
appreciated your opening comments as well as your lengthier 
statements for the record. Thank you so very much for your 
participation.
    I would like to begin by following up on the discussion 
related to the allegations that the Russian Government, 
specifically the GRU, has put bounties on the heads of U.S. 
servicemembers.
    We know that Russia is known for using proxy actors to 
carry out violence while maintaining its level of deniability, 
having done so in Ukraine and Syria. And, of course, as some of 
the witnesses mentioned, the GRU certainly has attempted 
assassinations across Europe.
    So I would like to begin with you, Ambassador McFaul. In 
your experiences in Moscow, what are the limitations that we 
face in dealing with the Kremlin when it comes to these types 
of threats, especially when the Kremlin does deny a 
relationship to entities or knowledge of these actions?
    And, relatedly, what tools could potentially strengthen the 
hand of our diplomats as they are dealing with or attempting to 
deal with the Kremlin?
    Mr. McFaul. Well, thank you for those very hard questions, 
because they are difficult. Vladimir Putin is a very smart 
operative when it comes to intelligence matters. I probably do 
not need to tell you that. And he has been at the job for 20 
years; let's remember that. That gives him experience. And this 
notion of deniability, as we saw in all of those instances, is 
always there.
    For me, there are two very clear things, though. Just 
because he is denying it does not mean we should ignore it.
    And what really disturbs me about this current situation 
and these current allegations, as somebody who used to work at 
the White House--I want to remind everybody, I worked 3 years 
at the White House before going to Moscow. And I had the 
privilege of having the most incredible intelligence in the 
world. I think the Russians always underestimate how good we 
are at this. They most certainly underestimated the information 
that was declassified for the Mueller investigation. And I 
think that gives us a tool that we do not use enough.
    So, one, I think declassification, when it is appropriate, 
is a way to expose it so that it cannot be denied so easily for 
Vladimir Putin.
    But, No. 2, it also means that the President of the United 
States has to take intelligence seriously. We can talk until we 
are blue in the face about all the things the White House 
should do, but if the President won't listen to his own 
intelligence--and here I also want to say that the Trump 
administration--I worked at the White House. I got the PDB 
every day. I worked for the National Security Advisors, two of 
them. They got the PDB every day. It is their job to inform the 
President about intelligence like this. I am sorry, it is not 
an excuse to say, ``Well, he does not read, so he does not see 
it.'' If it is important, he needs to be aware of it.
    And I do not need to tell you, we do not verify 
intelligence, right? We do the best we can with what we have. 
And you are not doing your job if you are not telling the 
President about this possible damning intelligence, especially 
when he is calling Vladimir Putin six times, especially when he 
is inviting him to the G7, especially when he is making the 
decision to withdraw troops from Germany. Those are policy 
decisions, and you need the intelligence community to be part 
of informing policy decisions.
    And that is what disturbs me about--it is not just the 
President ignoring the intelligence. I feel like the national 
security decisionmaking process has broken down.
    Ms. Spanberger. Thank you very much.
    And, with the limited time left, because, Mr. Chairman, I 
now see the clock, I would like to ask Ambassador Fried very 
briefly when we are talking about the opaque actors, such as 
the Wagner Group, the Wagner Group that we have discussed 
already, how in your estimation--and perhaps, Dr. Marten, if 
you would like to comment on this as well--does Russia's 
reliance on private and opaque actors affect the tools that the 
United States can and should use to respond?
    Mr. Fried. Dealing with the Wagner Group is difficult 
because there are issues of deniability, but to deal with it, 
we need to call it out for what it is. We need to expose 
Russian maligned behavior. I agree with Professor Marten right 
down the line, expose it, and also expose it to the Russian 
people.
    The Russians are sensitive to their people dying in Putin's 
foreign wars. We know this because Putin has gone to such great 
lengths to criminalize publicizing information about those 
soldiers dying, which suggests an opportunity. Publicize it, 
reach out to the Russian people, and do not assume that they 
are idiots or patsies or sheep following Putin because they are 
not.
    Ms. Spanberger. Thank you very much.
    And I think your comment goes well with Ambassador McFaul's 
that just because he is denying it does not mean we should 
ignore it.
    And, Mr. Chairman, on that, I will yield back. Thank you so 
much to our witnesses.
    Mr. Keating. Thank you.
    The Chair will now recognize the gentleman from Texas, Mr. 
Wright.
    Mr. Wright, I think your mute is still on.
    Mr. Wright. How about now?
    Mr. Keating. Yes.
    Mr. Wright. We are good.
    I want to thank all of the witnesses for joining us today.
    Mr. Kara-Murza, you mentioned that the future of Russia 
would be determined in the streets not at the ballot box. And 
my question to you is, if there is enough of a groundswell 
protest against Putin by the Russian people, what do you 
anticipate the Russian military would do?
    Mr. Kara-Murza. Thank you very much, Congressman, for this 
question.
    Well, I think we know the answer to this question from the 
previous instance where an authoritarian regime in our country 
was toppled through street protests, and that, of course, was 
in August 1991, the 3 days that ended the Soviet regime, when 
there were half a million people on the streets in Moscow 
protesting against this attempted coup d'etat led by the top 
leadership of the KGB and the Communist Party, and there was an 
order given to the military to shoot peaceful protestors and to 
storm the Moscow White House where Boris Yeltsin, the Russian 
President, was based. And we know that the Russian military 
refused to do this.
    And I think, of course, you know, every situation is 
different, but I think that this is what is likely to happen 
the next time there are large street protests. I do not believe 
that Russian soldiers will be willing to shoot at unarmed 
Russian demonstrators on the streets of Russian cities, and I 
think the Kremlin knows this, too. And this is why every time 
you see larger position protests in Moscow, as happened, for 
example, in 2011 and 2012, over that winter of protest, you see 
that the Kremlin regime is bringing in the operatives from the 
Chechen regiment that is controlled by Ramzan Kadyrov, who is 
one of the most egregious human rights abusers, even by the 
standards of Putin's system, the Kremlin-backed and Kremlin-
appointed leader in Chechnya. He has this kind of, you know, 
Praetorian Guard that is fiercely loyal to him and that would 
be prepared to do essentially anything. And we know, for a 
fact, that during those protests, during those large opposition 
rallies in 2011 and 2012 in Moscow, there were operatives and 
armed officers of these Chechen battalions loyal to Kadyrov 
that were brought to Moscow and stationed around the city in 
hotels in the event of the use of force against demonstrators.
    And this, I think, is the most dangerous factor that we 
need to consider, and it is very important that there are 
finally measures of accountability being taken also with regard 
to Ramzan Kadyrov, who is one of the most egregious enforcers 
of everything that Vladimir Putin has been doing. We know from 
established facts that Ramzan Kadyrov's people have been 
involved front and center in the assassination of Russian 
opposition leader Boris Nemtsov in 2015. We know that Ramzan 
Kadyrov's security forces were involved front and center in the 
military incursions in eastern Ukraine in Donetsk and Luhansk 
that began back in 2014.
    Ambassador McFaul mentioned these murders, recent murders 
in Berlin and Vienna. Well, these are all opponents of Ramzan 
Kadyrov, and I do not think anybody doubts that he had a hand 
in these events.
    And I think it is very important that the international 
community is finally beginning to pay attention. There were two 
very important resolutions that were passed in Congress last 
year, S. Res. 81 in the Senate, and I think the number for the 
House was--let me just get it correct for the record--H. Res. 
156. These were two resolutions on the case of the 
assassination of Boris Nemtsov, and one of the provisions in 
those resolutions was a call on the U.S. Government to 
investigate Ramzan Kadyrov's financial dealings in Middle 
Eastern countries, especially in the United Arab Emirates, with 
a view to potentially imposing secondary sanctions on him if 
that were found to be in violation of U.S. law.
    And there was a very important request that was sent a few 
months ago, a bipartisan request, signed by Congressman Joe 
Wilson, who is with us here today, and Congressman Tom 
Malinowski, Democrat of New Jersey, requesting that the 
administration investigate those financial ties and financial 
links of Ramzan Kadyrov in the Middle East, particularly in the 
UAE. And there was actually a very strong response from the 
State Department that came, I believe, in the beginning of 
March in which the leadership of the State Department promised 
to pay attention to those issues.
    So I think the Kadyrov factor is a very important one, and 
it is time that it gets more international attention.
    Mr. Wright. Great. Thank you.
    And I yield back.
    Mr. Keating. Thank you.
    The chair now recognizes the gentlelady from Nevada, Ms. 
Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    And thank you for these wonderful presentations. It has 
been very educational.
    I am used to seeing the Ambassador on TV, so I thought I 
would get to see you in person, but now we are still on TV. So 
thank you.
    You know, we tend to focus mostly on Putin's foreign policy 
without as much attention to what is going on within the 
country. Some of you have mentioned that things may be changing 
or you may see some uprising. We tend to be optimistic. We were 
in China. We were in Iran. Maybe in Russia, we think the people 
are going to take back the system and overthrow the regime. 
That seldom really happens.
    But I wonder if all of you could address the fact that now 
that Putin is more secure in his own position, having changed 
the Constitution and potentially be around until the 2030's, 
will his behavior improve internationally, or do you think now 
that he is more secure, it will get worse internationally?
    Mr. Fried. Let me jump in and try.
    I do not think Putin is more secure, and I do not think he 
thinks he is more secure. He went to elaborate lengths to push 
through a dodging plebiscite, ignoring even Russia's procedures 
for elections. That is not secure. That is insecure. The 
economy is getting worse. COVID-19 has hit them hard. So I 
think Putin is operating from a position of significant 
weakness, and, therefore, I think he is going to lash out where 
he can. I think he will be unremittingly hostile to us and to 
democracy, which does not mean we have to be hostile to him, 
but it means we have to be clear-eyed and resist his 
aggression, as well as invest in a possible better future with 
a possible better Russia.
    Ms. Titus. If this election goes in a way that we have a 
new President, what can that new President do to change course, 
or are things too established or is he too--oh, too set in his 
ways in what he needs to do that it really won't make much 
difference?
    Mr. Fried. I would not be over creative and reach out to 
Putin. Look, I was part of the Bush outreach to Putin, just 
like Michael McFaul was part of the Obama reset. I mean, they 
both tried, and they failed because neither Bush nor Obama 
would accept Putin's position for good relations, which was 
ignore it if I beat up on people at home and let me crush 
democracy in the countries I think belong to me, like Georgia 
and Ukraine. Neither President would do it, to their credit. I 
wouldn't--if I were advising a possible President Biden, I 
would say: Don't be in such a hurry with Putin, to reach out to 
Putin.
    Ms. Titus. Ambassador McFaul.
    Mr. Kara-Murza. Ambassador, if I could jump in for 1 
second?
    Ms. Titus. Please.
    Mr. McFaul. Vladimir, go ahead. I will go third.
    Mr. Kara-Murza. Very quickly. I just want to support what 
Ambassador Fried said a few minutes ago. You know, a secure and 
popular leader would not need to rig and falsify a vote. He is 
not secure. He is not popular, and he knows it. And as we know 
from history--and I am a historian by education--so speaking 
more with this hat on than as a political activist, we know 
that history has amended the best laid plans of dictators on 
more than one occasion, including in Russia, including 
something that happened in my own lifetime in August 1991, when 
the Soviet regime, you know, one of the most oppressive regimes 
in the history of humanity, collapsed in 3 days.
    This is what can happen in our part of Europe, in our part 
of the world. So let's not forget about that possibility as 
well.
    Dr. Marten. Can I jump in here? I think the fear that Putin 
has is not so much a popular uprising because I think the 
intelligence agencies do a really good job of keeping people 
down. What they have been doing recently is not doing massive 
amounts of violence but choosing at random people to put in 
prison, to send an example to everybody else. So I would not 
expect a massive popular uprising to happen in Russia.
    What Putin is afraid of is that his own intelligence 
agencies will turn against him, and I think that is why he put 
in place a referendum. He wants that legal safeguard, not 
against his people, but against the other people in the 
hierarchy who support him. And one of the things that we could 
do that would be most important is to reveal the illegality and 
to make public, as much as possible, the corruption and the 
terrible human rights violations, including by supporting civil 
society, which has done a great job in recent times of 
uncovering everything that is happening in Russia.
    Mr. McFaul. And if I could add, I have two things I would 
like to say.
    First of all, on Putin, he is very weak. He wouldn't have 
to do this plebiscite if he was a strong leader. And what I got 
to know over the years, he is an extremely paranoid leader. Why 
did he poison our colleague here, Mr. Kara-Murza, twice? Why 
has he banned me from Russia, a Stanford professor, for 
goodness' sake? You do not do that if you are a strong leader 
that fears nothing. You do that if you are afraid of society, 
if you are afraid of criticism. And we could talk about whether 
that leads to his demise or not, that is a different thing. 
That is a harder thing to predict, but I do not see him as a 
strong leader.
    With respect to policy, I, in my written testimony, tried 
to outline what I hope could be a bipartisan transatlantic 
strategy for dealing with Putin over the long haul. If he is 
going to be around for a long time, we have to have the ability 
to have a sustained policy, and I think it is a big dose of 
containment, a little dose of isolation--I think we spend way 
too much time chasing people like Putin around thinking we need 
him to do this, that, and the other. We most of the time do not 
need him--and a small dose of engagement when it is in 
America's national security interest.
    My biggest criticism of President Trump, President Trump 
mixes up means and ends. He always says, I want a good 
relationship with Russia, I want a good relationship with 
Putin. I do not care about that. I do not even care about good 
relations with France, by the way. I care about what is good 
for the American people, what is in our national security 
interest and economic interests. And sometimes you engage to 
pursue that and sometimes you contain to pursue that.
    The difference between President Bush, President Obama and 
President Trump, I would argue, is that, in very limited 
moments, those previous presidents engaged with the Kremlin to 
advance our national interests. It was in our national 
interests to negotiate the START Treaty and to ratify it. It 
was in our interest--I want to remind people, in 2009, we 
expanded the Northern Distribution Network to supply our troops 
in Afghanistan with Russia's cooperation. Putin has now 
reversed that. It was in our national interest to have a United 
Nations' Security Council resolution against Iran in 2010 that 
Russia supported.
    So, when it is concrete, we should engage, but we should 
never engage with Putin as an end, in and of itself. And here I 
just want to underscore, one of my good friends and mentors 
here at Stanford is George Shultz. You may remember he was the 
Secretary of State for Ronald Reagan, and he always talks about 
this. You can engage with an interlocutor without checking your 
values at the door. And they did that in the Soviet times. They 
did that in the cold war era before Gorbachev. I believe there 
are some important lessons for us moving forward together for a 
new policy toward Russia.
    Ms. Titus. Thank you.
    Mr. Keating. Thank you.
    The chair recognizes the gentleman from Tennessee, Mr. 
Burchett.
    Mr. Burchett. Every time you say ``gentleman,'' I look 
around to make sure you are not talking to somebody else, but 
thank you, Mr. Chairman.
    I appreciate you all. And I appreciate the ranking member, 
my buddy, Joe Wilson. And I appreciate the panelists.
    It seems to me that all of these Russian political 
assassinations, they have increased recently, and over the 
weekend it seemed like there was another one, another political 
assassination. This time it happened in Austria.
    Do you all feel like there is anything we can do to deter 
these kind of assassinations in the future. And, if so, what? 
And is that economic? Is that putting people on the border, or 
what?
    Mr. Fried. I remember the U.S.-European combined response 
in reaction to the attempted Russian assassination of the 
Skripals, the two--the former intelligence officer in the U.K.
    Mr. Burchett. Right.
    Mr. Fried. That was an interesting example of swift and 
effective action, where the U.S. and the Europeans talked, 
threw out a bunch of Russian diplomats simultaneously in a 
coordinated effort. That was pretty good. That was a strong--
that was Trump administration, by the way. Later I heard the 
President thought he had been tricked and he had gotten too 
far, but let's put that aside. That was a solid piece of work.
    So, to answer your question, yes, we can do things, and we 
should do things with our European colleagues, not against 
them. We shouldn't be wasting our political capital in 
pointless fights. We ought to be working with the European 
Union and individual member States to push back against Russian 
aggression, particularly assassinations. I think that there is 
a willingness on the part of the Europeans to do so. Look, even 
the Germans, Chancellor Merkel's government has asked the 
European Union to sanction Russians over a hack against the 
German Parliament a couple of years ago.
    So there is an audience out there for exactly the kind of 
leadership that I think you are talking about, and I think we 
ought to go in that direction.
    Mr. Kara-Murza. Could I jump in for a minute?
    Mr. Burchett. Sure.
    Mr. Kara-Murza. Thank you so much for the question, 
Congressman.
    First of all, I would say we know what the lack of reaction 
does. We remember when, in 2006, Alexander Litvinenko, a 
British citizen, was murdered on British soil using a 
radioactive substance.
    Mr. Burchett. Right.
    Mr. Kara-Murza. And there was almost no reaction from the 
British authorities, and it took Marina Litvinenko, Alexander's 
widow, years and the necessity to go through the entire British 
judicial system to force the British Government--Teresa May at 
the time, who was the Home Secretary, later became Prime 
Minister--to even have an inquiry in this case, and remember 
the outcome of the inquiry, when a retired British judge 
concluded that Vladimir Putin was likely personally behind this 
operation.
    Well, there was basically no reaction, and we know the 
results of that. We know the impunity continued, and we know 
the Skripal case happened in the same country, and it was a 
very different reaction then as Ambassador Fried just outlined.
    And in response to your question, on a practical side, I 
think it is very important to create actionable consequences 
for these people. You referred to the murder in Vienna a few 
days ago. Again, this was somebody who has crossed the paths of 
Ramzan Kadyrov, the Kremlin-backed strongman in Chechnya. And, 
you know, Ramzan Kadyrov a few years ago, under this 
administration, by the way, was included in the sanctions in 
the open sanctions list of the Magnitsky Act, and that was very 
important symbolically and very powerful as a message, 
practically less so because Kadyrov most probably does not have 
any assets in the United States. He has a lot of assets in the 
Middle East, particularly in the United Arab Emirates, even 
what is publicly known, he is receiving millions of dollars in 
personal profits from horse racing there, and the UAE is 
investing tens of millions of dollars in Chechnya, and 
everything in Chechnya is basically--you know, it is the same 
as Kadyrov's personal pocket.
    So it was very important when a few weeks ago there was--
first of all, when last year there was an almost unanimous 
passage, I think it was 416 votes to 1, that the House of 
Representatives passed House Resolution 156 relating to the 
assassination of Boris Nemtsov that contained this provision of 
inquiring as to the introduction of secondary sanctions against 
Kadyrov's interests in the UAE. And when a few weeks ago there 
was this congressional request from Congressman Malinowski and 
Congressman Wilson to the State Department to actually act on 
that resolution, that time Kadyrov did not laugh as he did 
when, you know, he kind of bragged about being included in the 
U.S. Magnitsky list. He said, look for my U.S. bank accounts, 
look for my U.S. homes. He is probably, you know, one of the 
rare people in Putin's establishment that does not have assets 
in the United States. He has a lot of stuff in the UAE. And 
that congressional request that I referred to basically said 
that, you know, how is it possible that the UAE is a country 
that claims to be a close ally of the United States and yet it 
is doing large-scale business with somebody who has been 
designated by the U.S. Government as a gross human rights 
abuser.
    So I think that secondary sanctions area, which is provided 
for by U.S. legislation, is a very important way to create 
actionable practical consequences for somebody like Kadyrov who 
is clearly involved in all of these Kremlin-sponsored murders 
outside of Russia.
    Mr. McFaul. Could I add just one footnote to that, Mr. 
Chairman?
    Mr. Keating. Yes.
    Mr. McFaul. In addition to all of those great ideas, I 
would just like to mention one other mechanism, and that is 
indictments.
    What was very striking to me in talking to Russians was 
when Mueller indicted_those GRU intelligence officers, that had 
a very tangible effect on what they can do and cannot do, 
particularly with respect to travel abroad and the use of 
INTERPOL to try to arrest people in third countries. And I 
think it was a big mistake not to follow through on the 
prosecution of those criminals.
    Mr. Keating. Thank you.
    The chair now recognizes the gentlelady from Pennsylvania, 
Ms. Wild.
    Mr. Burchett. Is my time up, Mr. Chairman?
    Mr. Keating. It is. Did you have anything more to say? Mr. 
Burchett?
    Mr. Burchett. No. You can go ahead. I am sorry.
    Thank you.
    Mr. Keating. Thank you.
    Ms. Wild. Thank you very much, Mr. Chairman, and thank you 
to the witnesses for being here on this what I think is a 
really important issue.
    My first question that I would like to ask of Ambassador 
McFaul is this. We know that reports have recently come to 
light that Russian officials may have offered Taliban-linked 
militants bounties in exchange for killing American and NATO 
coalition forces, and, obviously, this is truly disturbing 
news. But even more disturbing in some ways is that President 
Trump has not acted on these reports, despite the White House 
being aware of this scheme for months. And if true, these 
reports show an enormous escalation by an already aggressive 
adversary.
    So I guess my first question to you is, if these 
intelligence reports are accurate, what do you think President 
Putin would be seeking to gain by encouraging Taliban forces to 
attack American troops?
    And my second question is, what would be an appropriate 
response by the U.S. in view of these reports?
    Mr. McFaul. Two great questions, and I do not want to 
pretend I have a great answer to the first one.
    I follow what Mr. Putin does, but I do not have direct 
contact with him anymore. But to me, if I were to give a theory 
for what he is doing: Remember Putin sees us as the enemy. He 
wants to weaken the United States. He wants to form a disarray 
in the international system. He wants to see the collapse of 
NATO and even the liberal international order. He has said this 
on the record.
    Anything that weakens us is good for him, and he sees the 
world in zero sum terms. If it is plus 2 for Russia, it is 
minus 2 for the United States, and vice versa. I think he wants 
us to be bogged down in Afghanistan. I think he wants us to be 
fighting there. That has been good for him.
    And remember this is just the latest escalation. In other 
reporting we had--and I think you will be talking to General 
Nicholson later in the week--of their escalatory engagement of 
the Taliban. So, this is not a one-off thing. So that would be 
my interpretation there. He just wants us to be bogged down.
    With respect to response, again, if you are not willing to 
recognize the crime, then it is hard to talk about the 
punishment, right? My plea would just be for the Trump 
administration to recognize what happened. And if it is not 
true, do not just put out a tweet that it is a hoax, but say 
that, for instance, it has been reported that this information 
was in the PDB on February 27. That is an easily verifiable 
fact or not. It has been reported that there was a transfer of 
funds from a GRU bank account to a Taliban-controlled bank 
account. Is that true or not? That is an easily verifiable 
fact. And if it is true, then we should declassify the 
information and make sure that the world, all of the American 
people, as well as all of the Russian people, know that this is 
going on. Because if that is true--I want to underscore, 
sometimes we get too rational in our discussions of Putin. I 
want to say this with some emotion.
    If it is true, that means that the gentleman that our 
President just invited to come back to the G7 is putting 
bounties on the heads of U.S. soldiers that signed up to defend 
and protect the United States of America. That is outrageous. 
And if it is not true, we need to learn that it isn't. But if 
it is true, we need to call it out for what it is, outrage, and 
we need to be outraged about it, and the President himself 
needs to make that statement. It is simply not enough for 
somebody else within the administration to say it because that 
is exactly what Vladimir Putin is looking for. He has said it 
many, many times. There is the deep State, right? People like 
me, like Ambassador Fried and others, we are the ones 
controlling what President Trump wants to do. The President of 
the United States, if this is true, needs to say that it is 
true. And then the consequences we can talk about later, but 
the first thing_he has to just admit the facts if they are 
true.
    Ms. Wild. And do you believe that if that were admitted by 
this or some hypothetical administration that further 
consequences would be warranted?
    Mr. McFaul. Absolutely, yes, of course, sanctions, as have 
been discussed before. Again, I want us to see--I want us to 
have a grand strategy for containing Putin's Russia. I think we 
sometimes get too reactive and tactical. That is what we did 
during the cold war. By the way, the cold war lasted a long, 
long time. For 40 years, we had to maintain that strategy. It 
wasn't inevitable that we were going to win.
    So I want to see us develop, in a bipartisan manner and 
with our allies--you have got to have both of those things 
together, that is what we had during the cold war--where we 
have multiple things we are doing simultaneously across the 
board, supporting NATO, supporting Ukraine--I am quite worried 
about what is happening in Ukraine, by the way; That is not 
getting enough attention from the Trump Administration--keeping 
sanctions in place, only reducing them if Putin changes his 
behavior; you know, across the board, diversification of 
energy, reengaging in multilateral institutions like the OSCE, 
like the Law of the Sea Treaty Convention. That would help us 
in terms of containing Russia in the Arctic. In other words, we 
have got to have a multi-pronged grand strategy, not just a 
one-off response here and there to be successful over the long 
haul.
    Ms. Wild. And so, as I understand your answer, it requires 
that we have strong cooperative relations with our allies so 
that it is not just sanctions being imposed by the United 
States, correct?
    Mr. McFaul. Without question. We have no chance if we are 
not united with our allies in Europe and, I would say, the 
liberal world, the liberal democratic world, as Ambassador 
Fried said in his remarks. We have got to reengage to be the 
leader of the free world.
    Ms. Wild. Well, you will get no argument from me on that at 
all, Ambassador.
    I have one last question for you. And that is whether you 
have concerns about whether these reports, assuming them to be 
true, of bounties being offered to the Taliban show--does it 
show an increasing level of Russian aggression toward the 
United States and a growing reliance--maybe this is a second 
part of the question--a growing reliance by Russian on proxy 
wars to spread its power?
    Mr. McFaul. Yes, I think there is an escalation here, and 
the only way we will push Putin back is if we have a 
concentrated grand strategy to push back.
    But I also want to say another thing it shows. I want to be 
clear: I do not support the release of classified information 
to the press. I find that that is not in America's national 
interest, and the level of detail that has been leaked suggests 
that the President is losing his own intelligence community. 
Think about what you must have to do--you go to jail to put 
that information in The New York Times, and that suggests a 
real discontinuity and a breakdown of our national security 
decisionmaking apparatus in the U.S. Government. That also 
troubles me.
    Ms. Wild. Thank you, Ambassador. I believe I am out of 
time.
    Thank you, Mr. Chairman, for your grace in allowing me to 
finish that. I yield back.
    Mr. Keating. Thank you.
    Mr. Wilson. Mr. Keating, I want to apologize. I have to run 
to another meeting, but I have been grateful to be with you and 
my colleagues and the witnesses. Thank you, everybody, for your 
participation here today.
    Mr. Keating. Thank you to the ranking member. Thank you for 
your participation as well and your work in this area.
    The chair will now recognize the gentleman from Maryland, 
Mr. Trone.
    Mr. Trone. Thank you, Mr. Chairman. I appreciate it.
    I want to thank Ambassador McFaul for his comments to 
Congresswoman Wild's questions. They were really well thought 
out, and I could not agree more.
    This question goes to Dr. Marten, and if Ambassador McFaul 
wants to jump in, that would be great. The long-term presence 
of a Russian base in Libya could harass, impede freedom of 
movement in the Mediterranean Sea by us, NATO, the EU, et 
cetera. What is your assessment of whether Russia will be 
successful in this area in Libya and what more can the U.S. do 
to prevent this from happening?
    Dr. Marten. Thank you for that question, Representative. I 
think you just hit the mark.
    There is no question that the reason that Russia is using 
the Wagner Group right now in Libya on behalf of the warlord 
Khalifa Haftar is to try and split the country in two and to 
have the central and eastern part of the country be Russia's 
preserve where they could both have significant control over 
the oil and gas deposits that Haftar controls and also 
establish a permanent air or naval base on the Mediterranean 
that could harass NATO and EU and U.S. activities.
    And I think the most important thing that we should keep in 
mind is that when we withdraw our attention from various places 
in the world, that tends to be where Russia moves in. I think 
that perhaps the United States could be doing more to support 
the U.N.-recognized governments in Libya, again reengaging with 
our allies--this has been emphasized by so many people at this 
hearing--and taking the stance that says that the U.N.-
recognized government in Tripoli is the one that deserves 
international support, deserves its entire territory returned 
to it, and to call out Russia for what it is, in fact, doing.
    And the other thing to keep in mind is that, in Libya, just 
as has been the case in Syria, Russia is carrying out terrible 
human rights violations for people on the ground by attacking 
civilians because the Wagner Group is not following the rules 
they are supposed to follow under the Geneva Conventions and is 
just very much a loose cannon.
    So I think the strongest thing that we can do is to 
reengage globally, to reengage with our allies globally, and to 
call out Russian behavior for what it is and recognize that 
some of the best work that has been done on discovering what 
Russia is doing is being carried out by private actors. It is 
not just States that are releasing that information, but 
investigators that are having a great deal of information 
released and analyzing it that can be useful for States as 
well. And so, again, it is reengaging with civil society as 
well.
    So thank you for a terrific question.
    Mr. Trone. Ambassador McFaul, anything you want to add to 
that?
    Mr. McFaul. I think that was a terrific answer about Libya. 
I just want to underscore the broader point that my colleague 
made. When we withdraw from leadership from multilateral 
institutions, from bilateral diplomacy, and we say we are going 
to go it alone, we are going to pull up and look inside, that 
has direct consequences for our long-term national security 
interests.
    Pulling out of the Paris climate accords affects how we 
deal with Putin, and I would say the same thing about China, by 
the way. We just have to understand that when we withdraw, we 
limit our ability to deal with Putin with our allies and in 
multilateral institutions that advances American national 
interests. I think sometimes that gets confused. We are 
supporting our interests, and we are always better off if we 
are doing it with our allies as opposed to going it alone.
    Mr. Trone. That is good. I agree.
    Mr. Kara-Murza, what does the average Russian actually know 
about the Wagner Group and other private military organizations 
about their connections to the Russian government, and how 
important is it, the public perception of Putin's government, 
that this information be more widely dispersed?
    Mr. Kara-Murza. Thank you so much, Congressman. That's the 
fundamental question, and I think the best answer to it is, 
unfortunately, provided by the fate of three Russian 
investigative journalists whom I referred to in my opening 
statement, Orkhan Dzhemal, Kirill Radchenko, and Aleksandr 
Rastorguev, who were working on exactly what you are asking 
about, uncovering the shadowy activities of the Wagner Group. 
And in the summer of 2018, they flew to the Central African 
Republic, which is a country essentially fully controlled by 
the Wagner Group and, hence, by the Kremlin.
    Just to give you one fact, the National Security Advisor to 
the President of the Central African Republic, President 
Touadera, is a Russian National by name of Valery Zakharov. I 
am not aware of any other precedent in the world where one 
country's National Security Advisor is himself a citizen of 
another country. But that is what is happening in the Central 
African Republic, just gives you an idea of how overwhelming 
the control of the Kremlin via the Wagner Group is of the 
Central African Republic.
    And 2 days after they arrived in the country, the three 
journalists were murdered in a clearly prearranged ambush. 
There were valuables in their cars, such as cans of gas, a very 
valuable commodity in the CAR, that were not taken. It is 
absolutely clear that the reason for the murder was not, you 
know, quote/unquote,_``robbery''_ as the Russian Foreign 
Ministry was very quick to announce before even any kind of 
investigation took place. And we are now almost 2 years after 
that fact--they were killed on July 30 of 2018; we are now in 
July 2020--no meaningful investigation has been happening 
either in the Russian Federation or in the Central African 
Republic, as you would not be surprised to hear.
    And I think it is very important to go back to something 
Ambassador McFaul said a few minutes ago about the importance 
of the U.S. engaging in multilateral institutions. I think this 
is an area where the multilateral system should step in and do 
what the Kremlin regime and its proxies in the Central African 
Republic are refusing to do and conduct an international 
inquiry into what has happened. And there were two very strong 
bipartisan letters from the U.S. Congress last year that were 
led by Senator Marco Rubio and Senator Christopher Coons 
addressed to the U.N. Secretary General on exactly this 
question, on the need for an international inquiry into this 
case.
    And if you look at some of the facts that have been 
uncovered, for example, by the Dossier Center, which is a 
United Kingdom-based NGO that has conducted a thorough private 
investigation of what has happened, there is absolutely no 
doubt that, you know, Russian intelligence officers and their 
Wagner proxies were front and center involved in the murder of 
these journalists in the Central African Republic.
    So this is the answer to your question. Apart from all of 
the other characteristics of the Wagner Group that we have been 
discussing with our colleagues during this hearing, another one 
is secrecy. They are obsessed with secrecy. One of the things 
or perhaps the thing they are most afraid of is transparency 
and shining the truth on their actions.
    So I think this is precisely why it is so important to 
uncover the abuses and the crimes that this organization has 
been involved in and also to try to push for an international 
independent inquiry into what happened to those three Russian 
investigative journalists who tried to uncover that truth about 
the Wagner Group.
    Mr. Trone. And the Russian public knows zero about the 
Wagner Group?
    Mr. Kara-Murza. So, you know, the one big difference 
between the authoritarian regime in our country and the 
totalitarian, I guess, regime in China is that, unlike the 
Communist China, we still have internet, and we still have 
social media. There are some attempts by the Putin regime to 
block online access and websites, but they are miniscule 
compared to what was happening in other regimes.
    So, when it comes to national television, that is fully 
controlled by the State. In fact, that was the first thing Mr. 
Putin ensured after he came to power, to either shut down or 
take over privately held independent television networks. There 
was NTV, TV6, then TVS. So all of the national television 
channels are directly controlled by the government, so for 
about--this is according to public opinion surveys--about 70 to 
80 percent of the Russian population use television as a 
primary source of information, and that is fully controlled by 
the State. So, of course, people who gather information from 
State TV know nothing about this or almost nothing.
    That part of the Russian population, we are mostly talking 
about younger educated people in large cities, so the urban 
middle classes, who do have access to the internet, who do use, 
you know, Facebook and You Tube and Twitter and all of those 
same instruments that you use in the U.S. as well, they know, 
of course, much more because there have been some private 
investigations conducted by, for example, the Dossier Center 
and other organizations, including international media 
organizations, into the Wagner Group and its operations. And so 
those people who do have access to online reporting do know 
just how dangerous, just how entrenched, and just how 
influential this particular proxy arm of the Putin regime is.
    Mr. Trone. Thank you very much. That was very enlightening.
    Mr. Chairman, I yield back, and thank you for having this 
hearing.
    Mr. Keating. Thank you, Representative.
    And talking about the importance of transatlantic allies, 
the chair now recognizes the gentleman from California, Mr. 
Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. I think is a 
very good subcommittee hearing that we are holding with these 
experts who I think we all have a great deal of respect for.
    As the chair of the Transatlantic Legislators' Dialogue, 
you and I have worked together, along with many of our other 
colleagues, to foster that institution as part of the glue to 
maintain our multilateral relationship. But I agree with you, 
Ambassador McFaul, when you say that, when we advocate our role 
in these institutions, whether it be the Paris climate accord 
or whether it be today the World Health Organization, we create 
a vacuum in which our adversaries quickly take that space.
    I have got several questions. One, the situation where 
Russia has put itself in with Syria and the complexity of 
agendas between themselves and Iran and Israel and our 
abdication there, more or less, does that have the potential 
for Russia to be the same quagmire that Afghanistan was for the 
Soviet Union?
    Who would like to take that?
    Dr. Marten. Sir, on that, what Russia is attempting in 
Syria is something that is actually modelled on their actions 
in the Central African Republic, which is to become the 
linchpin in between militias that are in the outlying areas and 
the central government, and trying to use its efforts at what 
it calls reconciliation to bring these groups together and 
create stability.
    One of the problems that it is facing in Syria is that this 
goes against the interests of Iran in Syria, because Iran 
really wants to be politically dominant in Syria in order to 
have a Shia presence that would extend beyond Syrian territory. 
So I think that is one of the areas where the United States 
could do the most to try to put a brake on what Russia is 
doing, by emphasizing those conflicts that are happening 
between Russia and Iran and by trying to pull them apart in 
ways that demonstrate that neither of them are going to be 
capable of controlling that situation as strongly as they would 
like to.
    Thank you.
    Mr. Costa. In partnership with Israel?
    Dr. Marten. I think Israel's primary goal is to have 
stability in Syria, and for that reason, we have seen actually 
a very high degree of cooperation between Israel and Russia in 
Syria, because Israel believes that Russia is the more stable 
actor in comparison to Iran. It is very afraid of what Iran 
might be doing with Hezbollah and other Shia militias in Syria, 
whereas it sees Russia as having a desire to have a success 
case.
    Mr. Costa. No, that is my sense, and I find that troubling.
    Ambassador Fried, you talked about our partnership with 
NATO and, Ambassador McFaul, you talked about a strategy much 
as we did during the cold war, where it was multifaceted, that 
we need to reinstitute. As the chair with the Transatlantic 
Legislators' Dialogue, I find that a lot of our NATO allies 
these days, Members of Parliament that I interact with, have 
great concern as to whether or not we are going to be able to 
maintain that commitment that we have had in the past, and I 
have tried to suggest to them that this is a passing moment, 
but I am wondering if either of you would care to comment, and 
then I have one other quick question.
    Mr. Fried. I share some of your concern, and I have had 
similar conversations with European officials and 
Parliamentarians. But the other sense I get from them is that 
they want us back. They are somewhere between apprehensive and 
terrified of the thought that the United States has pulled 
itself out of world leadership for the foreseeable future.
    Mr. Costa. I get that same sense.
    Mr. Fried. But they want us back, and they are not partisan 
about it. It is not a Republican or Democrat thing. It is 
American leadership, and they are hungry to have us back. I 
think the opportunity is there if people take it.
    Mr. Costa. Well, and over the years--and I have been 
involved with these folks for a number of years--they have 
always been very appreciative of the fact that our policy has 
always been bipartisan, that we have always come to Europe 
together with a bipartisan effort.
    One quick question. When we talk about a quick strategy--
and I have talked about the interaction with a reference to 
their personal holdings--we know a lot about the personal 
holdings of not only Putin, but I mean, I refer to Russia 
sometimes as the Russian version of the Sopranos because, 
clearly, their personal wealth and its investment in Europe and 
other financial institutions I think is a vulnerability, and I 
do not think we have ever tried to use it as such.
    Do either of you care to comment? And, Mr. Kara-Murza, I 
would think a lot of the Russian people would be very concerned 
if they found out how much wealth of Russia is no longer in 
Russia but in Europe and elsewhere.
    Mr. Kara-Murza. They are, and I think--thank you so much 
for this question because I think nothing has been as effective 
as a tool of policy on the part of Western democracies, with 
regard to the Putin regime in the last several years, as the 
Magnitsky Act, and the U.S., of course, was the first country 
to pass this law. Boris Nemtsov, the late Russian opposition 
leader, described the Magnitsky Act as the most pro-Russian law 
ever passed in a foreign country because it targets those 
people who want to steal in Russia but spend in the West. That 
is the motto of those people who have seized power in our 
country. If you look at those people, you will see that they 
spend their vacations in the West. They send their children fo 
schooling in the West. They send their wives and mistresses on 
shopping tours in the West. This goes both for Western Europe 
and for North America.
    And I think it is very important that the democratic world 
do something about it and stop this hypocrisy for those people 
who abuse the most basic norms of democratic society in our 
country, in Russia, and then come to your countries in the West 
and enjoy the fruits and benefits that democratic society 
offers. This should be stopped, and that is why it is so 
important to raise this issue.
    Mr. Costa. Well, I have seen pictures of their yachts in 
the Mediterranean and the Caribbean, and they are quite 
luxurious.
    Mr. Kara-Murza. There was a very important development this 
week, yesterday in fact, when the United Kingdom finally began 
implementing its own Magnitsky Act that has been on the books 
for 2 years but has sat inactive, and now they have announced 
yesterday some of the first names on the sanctions list, again 
those individual sanctions, not targeting a country but 
targeting those individual crooks and human rights abusers who 
want to steal in Russia and abuse in Russia but spend their 
stolen money in the West, and that hypocrisy should be stopped.
    Mr. Costa. Could we prevent their access to those bank 
accounts?
    Mr. Kara-Murza. That is exactly the point of such 
legislation, and I, you know, as the only Russian citizen on 
this panel, I do not and cannot advocate sanctions against my 
country. But I certainly advocate and support individual 
targeted measures against those corrupt official crooks and 
human rights abusers in Vladimir Putin's regime who abuse the 
rights and freedoms of Russian citizens and steal the money of 
Russian taxpayers at home and then bring that stolen money to 
the West.
    This is why measures such as the Magnitsky Act are not 
anti-Russian but pro-Russian, and as of today, there are only 
six countries that have these laws on the books. The OSCE has 
57_-member States. Forty-eight of them are functioning 
democracies, yet only six have this law on the books. So I hope 
there are more countries that follow your example and pass this 
legislation, and I hope that this law and other similar laws 
and targeted individual sanctions are used more actively in a 
more widespread fashion and more effectively in the United 
States as well.
    Mr. Costa. Ambassador McFaul.
    Mr. McFaul. Well, I agree with my colleagues. I think I am 
a little more worried about transatlantic relations maybe 
because the battle we are having with Putin is not just between 
states. It is an ideological battle, and I think Americans do 
not appreciate that he has an ideological agenda, populous, 
nationalist, anti-multilateralist, orthodox, antigay rights. It 
is a set of ideas. Two decades ago, he was focused just on 
propagating those ideas within Russia. Now, he is exporting 
those ideas, and he is spending a lot of money to export and 
propagate those ideas. And he is picking up some wins. Viktor 
Orban, Matteo Salvini, even a lot of Americans these days, they 
are sympathetic to those ideas. I think we have got a lot of 
work to do, small D democrats, small L liberals, not Democrats 
and Republicans; but if you believe in liberal democratic 
values, there is a fight not just between the East and the 
West, like the cold war, but it is within Italy; it is within 
Hungary; it is within Germany; it is within Serbia; it is 
within the United States of America.
    And I think we have to understand that Putin is seeking 
alliances within those countries, and we have got to have a 
better strategy to push back on it. Some of it is transparency, 
like we are talking now. But as I said in my opening remarks, I 
think it is really sad what is happening at RFE/RL right now, 
that we need to regain the independence of that organization. 
We need a firewall between that organization and political-
motivated organizations.
    And I would just remind my Republican friends, you know, 
you are not going to be in power all the time. So, do not you 
want a firewall between what that organization does and what 
the next President wants? And I think the separation between 
the President of the United States and the U.S. Government 
should have its outlets to speak about our policy. I 100% 
support that. But RFE/RL is not that. RFE/RL is independent 
reporting, by and large people from the regions, by the way. It 
is mostly people from the regions. I really think we have got 
to get back in this ideological game. We have kind of lost our 
focus on it, and I feel we are losing right now. I really do 
feel we are losing.
    Mr. Costa. Well, my time has expired, but I thank you, Mr. 
Ambassador, and let's talk some more offline. Karl Eikenberry 
says hello. And I look forward to seeing you sometime here 
soon. Fresno is not that far from Stanford.
    Mr. McFaul. Great.
    Mr. Keating. Thank you.
    We are up against our prescribed time pretty closely, but 
we do have a few minutes for some quick second round questions 
if someone would have them. And, if not, I will proceed to 
closing remarks.
    Mr. Fried. Mr. Chairman, I wanted to jump in just to say 
that I usually agree with Mike McFaul, and I do in this case as 
well. And as I said in my testimony, the way to push back 
against Putin's world view is to challenge it, not agree with 
it, and get back to that bipartisan spirit of supporting the 
values in institutions of the free world and then updating them 
and fixing them so that they work better.
    Mr. Keating. Great. Thank you.
    Mr. Kara-Murza. Mr. Chairman, just for a few seconds. I 
think it is very important to make this point again. It has 
only been a few days. So maybe the importance hasn't sunk in 
yet. But what happened with this fake plebiscite last week in 
Russia was actually a fundamental difference. It is no secret 
to anyone that Vladimir Putin has lacked real democratic 
legitimacy for a long time, that he has been illegitimate de 
facto for a long time. But until now, he has--you know, even 
while he violated the spirit of the rule of law, he was careful 
to maintain the appearances by sort of pretending to stick to 
the letter of the law. So, for example, to avoid the initial 
term limit, he put in a placeholder puppet president by the 
name of Dmitry Medvedev. I do not know if anybody still 
remembers him, but so he kind of stuck to the limits initially.
    Then we all remember how he won, quote/unquote, the 
Presidential_``election''_in 2018 when his main opponents were 
simply removed from the ballot, like Alexei Navalny, for 
instance. But, again, on paper there was a, quote/unquote,_
``election.''_
    This time, by actually just simply subverting, tearing up 
and throwing away the term limits, Vladimir Putin is doing the 
same thing as Blaise Compaore did in Burkina Faso, as Alberto 
Fujimori did in Peru, Hugo Chavez in Venezuela, Alexander 
Lukashenko in Belarus, and I can continue this list of 
illegitimate rogue dictators who had used this trick before 
him.
    And it is very important that the attitude of the 
democratic nations of this world, beginning with the United 
States, reflect this new reality and that he is denied the 
recognition and the legitimacy and the prestige he so 
desperately craves but he has no longer any right to.
    Mr. Keating. Thank you.
    Dr. Marten. Could I just add that, because of Russia's 
patronage system, there has really not been the level of 
popular discontent about corruption that we might find in the 
United States, for example, if the same things were revealed to 
the American public about what our leaders were doing. But now 
as Russia is entering a recession and as things, as many of the 
speakers have said, are going so badly for Putin, it may be a 
time when informing people in more depth about exactly what 
wealth is out there and what the wealth is doing in foreign 
countries may have more of an impact on Putin's popularity than 
it has in the past.
    Mr. Keating. If I could follow on that quickly. We bear 
some responsibility here in the United States when it comes to 
some of the things that you have just spoken about. Money is 
being laundered in the United States with real estate and art, 
and that much we know, and that is how so many of the oligarchs 
and people like Prigozhin are using our country to benefit 
themselves. What can we do? This is something I do not think we 
have concentrated on fully. But this idea of money laundering 
in the U.S. for real estate, that is pretty well documented, 
and art.
    What can we do to expose this? Do you have any suggestions?
    Mr. Fried. Actually, sir, that is an area where we have 
considerable potential. After 9/11, the U.S. Government 
increased its capacity to detect financial flows by terrorists, 
and we did a pretty good job.
    We now need to expand that and work at uncovering the 
corrupt financial flows, including but not limited to Russia, 
and we need to do it with the U.K. and with Europe because the 
Russians do the same thing in all of our countries. They buy up 
real estate through hidden deals. They do weird LLC 
arrangements through Delaware. They buy art. They go through 
fancy law firms.
    We have the capacity and Congress has the capacity to 
tighten this up, and there are a lot of people in the U.S. 
Government and Treasury, even in this administration with its 
inconsistency about Russia, who want to do the right thing. 
This is an area of considerable upside potential for us, and it 
means drawing up those flows of corrupt funds and exposing 
them. And the U.S. Government can do some of that, and some of 
the exposure of corrupt Russian money could be done by 
investigative journalists. A lot of it is being done. The 
discovery--I think Mike McFaul mentioned in the Panama Papers 
of Putin's corrupt Russian funds being channeled through his 
cellist. You know, we can do this, and we need to do it with 
our allies or else it will just be a shell game.
    Mr. Keating. Well, we have legislation sponsored dealing 
with hypocrisies and trying to focus on this and put us in a 
better position internationally, but we can also do a better 
job here at home. The fact that we are complicit in this Putin 
enabling is troubling.
    I want to thank a very gifted group.
    I see Representative Costa has a quick question, or maybe 
he is signing off.
    I just wanted as closing remarks, this is reinforced by all 
of you, a panel whose knowledge is decades long and very in 
depth. You have just been an important way to start this week 
where we are going to concentrate as a Congress on these 
issues. It is just a beginning. You have really has shown the 
widespread approach that we have to take. It is a dynamic 
issue. It is not singular to one event. As outrageous and 
shocking as the reports on the bounties are, we have to 
approach this at all levels and get answers and hold people 
accountable.
    But it is very clear that, right now, this administration 
and our country, and it is a challenge we are taking in 
Congress and on this committee and on the full committee, is to 
have a Russian policy. We do not have a comprehensive Russian 
policy and strategy in place to deal with this. And it is clear 
from today's testimony that the situation is only escalating, 
and it will continue to escalate until we act. And in the 
absence of action by the administration in this regard, it is 
incumbent on Congress to do so.
    So we are going to ask you for your continued help going 
forward. We will act in Congress. We will act in the House. We 
have no alternative. We owe it to the family members who go to 
bed at night and wake up in the morning with questions of how 
their son or daughter might have died serving their country. We 
owe it to our allies. We owe it to democracies in the world 
because we cannot fail to take the leadership role, something I 
am afraid that our closest allies are concerned we are taking a 
backseat to.
    So thank you for what you are doing. We will continue. We 
will be having, as I mentioned, hearings this week, full 
committee on Thursday. We will be back on Friday with more 
hearings. Please--and for those people listening, I took the 
time, as I think members did, to read your full written 
testimony. I would suggest strongly that people that are 
viewing this take the time when that becomes available to read 
all of your written testimony, as well as the expertise and 
knowledge you shared with us today.
    Thank you so much. And this will be a continuing effort 
until we get it right.
    So with that, I will adjourn the hearing.
    Thank you.
    [Whereupon, at 4:01 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre></body></html>
